APPENDIX TABLE OF CONTENTS
Judgment of the First Circuit
(June 26, 2019)...............

la

Memorandum Opinion of the District Court of
Massachusetts (November 19, 2018).........

. 4a

Final Order of Dismissal of District Court of
Massachusetts (November 19, 2018).......

12a

Order of the First Circuit Denying Petition
for Rehearing En Banc (July 31, 2019).

13a

App.la
JUDGMENT OF THE FIRST CIRCUIT
(JUNE 26, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
CHARLES SIMON,
Plain tiff-Appellan t,
v.
UNITED STATES DEPARTMENT OF JUSTICE;
T. SPEIGHTS, Coordinator of Federal Prisons
Industries Inc., 28 C.F.R. Part 301; FEDERAL
PRISON INDUSTRIES, INC.; STEVE SHWALB,
Retired Chief Operating Officer of Federal
Industries, Inc., Policy 18 U.S.C. § 4126
28 C.F.R. part 301,
Defendants-Appellees.
No. 18-2206
Before: TORRUELLA, LYNCH and KAYATTA,
Circuit Judges.
Pro se appellant Charles Simon appeals from the
dismissal of his complaint involving matters related
to a compensation award pursuant to the Inmate
Accident Compensation Act, 18 U.S.C. § 4126, et seq.
Simon also appeals from the district court’s denial of
two post-judgment motions. Appellees move for sum­
mary disposition.

App.2a
Following a careful review of relevant portions of
the record and the arguments sufficiently developed
by Simon with his brief, we conclude that the appeal
presents ho “substantial question” and that summary
affirmance is in order. Local Rule 27.0(c); see also
United States v. Zannino, 895 F.2d 1, 17 (1st Cir. 1990)
(arguments raised in only a perfunctory and undevel­
oped manner are deemed waived on appeal).
We arrive at this conclusion substantially for the
reasons set out by the district court when dismissing
the complaint and denying Simon’s post-judgment
motions, though we affirm the district court’s dismissal
without prejudice of Simon’s claim regarding cessation
of compensation primarily based on improper venue.
See 28 U.S.C. § 1391(b) (general venue provision);
Williams v. United States, 858 F.3d 708, 714 (1st Cir.
2017) (“As always, we are also free to affirm on any
basis apparent in the record, even if it would require
ruling on arguments not reached by the district court
or even presented to us on appeal.”) (internal quotation
marks omitted); see also SBTHoldings, LLC v. Town
Of Westminster, 547 F.3d 28, 33 (1st Cir. 2008) (Fed.
R. Civ. P. 12(b)(6) standard of review); AVX Corp. v.
Cabot Corp., 424 F.3d 28, 30 (1st Cir. 2005) (res judi­
cata standard of review and general principles);
Biltcliffe v. CitiMortgage, Inc., 772 F.3d 925, 930 (1st
Cir. 2014) (motion for reconsideration standard of
review).
All other pending motions are denied as moot.
Affirmed.

App.3a
By the Court:
Maria R. Hamilton
Clerk
cc:
Charles Simon
Cynthia A. Young
Jason C. Weida

App.4a
MEMORANDUM OPINION OF THE
DISTRICT COURT OF MASSACHUSETTS
(NOVEMBER 19, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
CHARLES SIMON,
Plaintiff,
v.

UNITED STATES DEPARTMENT
OF JUSTICE ET AL.,
Defendants.
Civil Action No. 18-cv-11431-ADB
Before: Allison D. BURROUGHS,
U.S. District Judge.
BURROUGHS, D.J.
Pro se plaintiff Charles Simon brings this action
in which he challenges the calculation of the compen­
sation award he receives pursuant to the Inmate
Accident Compensation Act (“IACA”), 18 U.S.C. § 4126,
for a back injury he sustained in 1987 while incarcer­
ated.! The defendants (United States Department of
1 The IACA establishes the Prison Industries Fund, one pur­
pose of which is to provide compensation to federal inmates for
injuries “suffered in any industry or in any work activity in con-

App.5a

Justice (“DOJ”), Federal Prison Industries, and two
employees of Federal Prison Industries) have moved
under Rule 12(b) of the Federal Rules of Civil Proce­
dure to dismiss for failure to state a claim upon which
relief can be granted, or, in the alternative, for improper
venue. [ECF No. 7]. In the same motion, the defend­
ants also ask that the Court enjoin Simon from filing
lawsuits in the District of Massachusetts without
receiving prior authorization from the Court to do so.
Simon opposed the motion to dismiss, and, in the
same document, moved for judgment on the pleadings.
[ECF No. 10]. He later filed a motion for a preliminary
injunction [ECF. No 12], which the defendants have
opposed. Simon’s motion for a pretrial hearing [ECF
No. 10] is also pending.
For the reasons set forth below, the Court will
grant in part and deny in part the defendants’ motion,
deny as moot all other pending motions, and dismiss
the action.
I.

Calculation of Compensatory Payment

Although Simon’s complaint is not a model of
clarity, the Court discerns two general claims. The
first regards the DOJ’s determination twenty-four
years ago of the monthly compensatory benefits due
to Simon upon his release based on his loss of earning
potential resulting from a back injury sustained in
prison. Because the injury occurred in the course of
Simon’s prison employment, compensation is governed
by the LACA and its implementing regulations. See
28 C.F.R. § 301, et seq. The statutory text of the LACA
nection with the maintenance or operation of the institution in
which the inmates are confined.” 18 U.S.C. § 4126(c)(4).

App.6a

does not contain any minimum requirements or guide­
lines for determining the amount of such compen­
sation. It simply mandates that compensation not
exceed the amount of awards authorized under the
Federal Employees Compensation Act (“FECA”), 5
U.S.C. §§ 8101-8193, which provides compensation to
federal employees for wages lost due to job-related
injuries. The LACA regulations explicitly state that
the FECA “shall be followed when practicable.” 28
C.F.R. § 301.314. Under the FECA, compensation for
work-related partial disability is two-thirds of the
difference between the employee’s monthly pay and
his monthly wage-earning capacity. See 5 U.S.C. § 8106
(a).2 Simon argues that the DOJ’s method of calcu­
lating its monthly compensation—multiplying the
percentage of the inmate’s work-related disability by
two-thirds of the income of someone employed full­
time at the federal minimum wage3—is inconsistent
with the FECA and violates Title VII of the Civil
Rights Act of 1964, the Fifth Amendment, and the
Eighth Amendment.
Any claim concerning the calculation of Simon’s
monthly compensation award is barred by the doctrine
2 Under FECA and the IACA regulations, compensation for some
injuries (such as loss of vision, a digit, or a limb), is paid in a lump
sum. See 28 C.F.R. § 301.314(c)(1) (referencing 5 U.S.C. § 8107).
Compensation for other injuries, such as that sustained by
Simon, are “paid on a monthly basis because such awards are
subject to periodic review of entitlement.” 28 C.F.R. § 301.314(c)(2).
3 The IACA regulations require calculation of the compensatory
award based on the degree of impairment at the time of release,
application of the FECA “when practicable,” and the federal
minimum wage, see 28 C.F.R. § 301.314, but they do not explicitly
mandate application of the FECA’s two-thirds compensation rate.

App.7a

of res judicata. “Under the federal law of res judicata,
a final judgment on the merits of an action precludes
the parties from relitigating claims that were raised
or could have been raised in that action.” Maher v.
GSILumonics, Inc., 433 F.3d 123, 126 (1st Cir. 2005)
(quoting Porn v. Nat’l Grange Mut. Ins. Co., 93 F.3d
31, 34 (1st Cir. 1996)). As the defendants point out in
their motion to dismiss, Simon has attempted on
numerous occasions to litigate this claim. Courts have
dismissed his actions on the merits. See Simon v. Fed.
Prison Indus., Inc., Case No. 97-5323, 159 F.3d 637
(Table), 1998 WL 388369 (D.C. Cir. May 13, 1998) (per
curiam) (holding that Simon’s “award of compensa­
tion was properly calculated under [LACA] and its
implementing regulations” and that there was “no
merit to [Simon]’s challenge to the validity of the
inmate compensation system”); Simon v. U.S. Dep’t
of Justice, 89 F.3d 823 (Table), 1996 WL 345955 (1st
Cir. June 25, 1996) (per curiam) (agreeing with the
district court that his Eighth and Fourteenth amend­
ment claims “lack[ed] even the minimal factual spe­
cificity required to scale the Rule 12(b)(6) hurdle”
and that “plaintiffs execution of the ‘award and ack­
nowledgement and acceptance form’ extinguished any
further claim for inmate accident compensation,”
entitling the government to summary judgment on
that issue).4 Thereafter, courts have dismissed the
claim on the ground of res judicata. See, e.g, Simon
v. U.S. Dep’t of Justice, Case No. 16-5031, 2016 WL
3545484 (D.C. Cir. June 10, 2016) (per curiam); Simon
v. Bickell, Case. No. 10-5313, 2011 WL 1770138
(D.C. Cir. Apr. 22, 2011) (per curiam); Simon v. Fed.
Prison Indus., Inc., 238 Fed. App’x 623 (D.C. Cir. 2007)
4 Sic footnote 4 missing in original.

App.8a

(per curiam); Simon v. Fed. Prison Indus., Case No.
08-10792-JLT, 2003 WL 26128191 (D. Mass. July 15,
2003), affd, 91 Fed. App’x 161 (1st Cir. 2004) (per
curiam). 5
Moreover, such claim, which arises out the DOJ’s
1995 determination of the manner in which Simon’s
compensation is calculated, would be time-barred.
See 28 U.S.C. § 2401(a) (providing a six-year statute
of limitations for lawsuits against the United States).
II.

Termination of Compensatory Benefits

Simon also alleges in the present action that,
after receiving compensation payments under the IACA,
the payments were terminated in June 2018 “without
reason or notice.” Compl. | 7a.6 He claims he has
been unlawfully deprived of his property interest in
the continued compensation. The defendants do not
address this claim in their motion to dismiss. Because
Simon did not and could not have raised this claim in
his earlier actions, the defendants’ motion to dismiss
on the ground of res judicata or the statute of limita5 In their motion to dismiss [ECF No. 7 at 2], the defendants
suggest that, in Simon v. Brennan, 940 F.2d 666 (Table), 1991
WL 139921 (7th Cir. July 31, 1991) (not selected for publication),
Simon litigated the claims raised in this action. However,
Brennan concerned Simon’s lost wages while incarcerated, see
28 C.F.R. §§ 301.201-205, whereas the present case concerns
compensation for inmates after their release, see 28 C.F.R.
§§ 301.101-301.319.
6 In his complaint, Simon indicates the month but not the year
that his disability payments were terminated. The exhibits to
his motion for judgment on the pleadings [ECF No. 10] indicate
that he was receiving payments as recently as April 2018. Thus,
the Court infers that the payments were terminated in June
2018.

App.9a
tions is denied with regard allegations that his com­
pensation payments were wrongfully terminated in
2018.
Notwithstanding, the Court will dismiss this claim,
but without prejudice, because Simon has failed to
exhaust his administrative remedies.7 Neither the
IACA nor its implementing regulations specifically
require the administrative exhaustion of a claim that
IACA compensatory payments were wrongfully termi­
nated. Under the common-law doctrine of administra­
tive exhaustion, however, a court can require a litigant
to exhaust administrative remedies in appropriate
circumstances. See McCarthy v. Madigan,
U.S. 140,
145-46 (1992), superseded by statute on other grounds,
42 U.S.C. § 1997e(a); An versa v. Partners Healthcare
Sys., Inc., 835 F. 3d 167, 175-76 (1st Cir. 2016). Requir­
ing exhaustion of administrative remedies “serves the
twin purposes of protecting administrative agency
authority and promoting judicial efficiency.” McCarthy,
503 U.S. at 145.
Simon does not represent that, during the brief
passage of time between the reported termination of
the payments in June 2018 and the filing of this lawsuit
on July 10, 2018, he attempted to resolve the matter
with DOJ, or, in other words, that he even attempted,
much less exhausted his administrative remedies.
While the exact procedure for challenging the termina­
tion of monthly compensation payments is not speci­
fied in the IACA or its implementing regulations, the
regulations envision some resolution at the adminis7 For purposes of this order, the Court assumes, without deciding,
that the DOeTs suspension or termination of monthly compensatory
benefits is subject to judicial review.

App.lOa
trative level of issues concerning the termination of
monthly payments. See 28 C.F.R. § 301.315(b) (where
FPI requests but recipient fails to provide a state­
ment of earnings, IACA benefits will be suspended
“until such time as satisfactory evidence of continued
eligibility is provided).8 Simon must attempt to
address the reason for the termination of his compen­
sation payments with the DOJ before seeking a judi­
cial remedy.
III. Venue
The defendants correctly point out that venue
does not exist in the District of Massachusetts. The
claims raised in this action lack any ties to the Dis­
trict of Massachusetts, and Simon represents that he
resides in New York. Should Simon choose to seek
judicial review of a decision of the DOJ to terminate
his payments (after having exhausted administrative
remedies), he must bring the action in a federal district
court where venue is appropriate. See 28 U.S.C. § 1391.
IV. Motion for an Order of Enjoinment
Because Simon’s claim concerning the termination
of his monthly payment is not barred by res judicata
or the statute of limitations, the Court will decline to
order that Simon be required to seek and obtain leave
of Court prior to commencing a new civil action in
the District of Massachusetts. Nonetheless, Simon is
warned that he could be subject to sanctions if he
8 According a document Simon filed .in another case, in the
spring of 2017 he received an “Annual Income Review Request
for Claimant” from the DOJ requiring him to submit his annual
earnings for 2016. See Simon v. U.S. Dep’t of Justice, C.A. No.
94-11212-MLW (D. Mass.) [ECF No. 71 at 9].

App.lla

files another claim in this Court concerning the DOJ’s
1995 calculation of his monthly compensatory pay­
ments.
V.

Order

In accordance with the foregoing, the Court hereby
orders that:
(1) The defendants’ motion to dismiss for failure
to state a claim upon which relief can be granted is
GRANTED insofar as defendants seek dismissal of
the claim concerning the calculation of Simon’s monthly
compensatory award.
(2) The motion to dismiss for failure to state a
claim upon which relief can be granted is DENIED
- with regard to Simon’s claims that his inmate com­
pensation payments have been unlawfully terminated.
(3) The motion to dismiss for improper venue is
DENIED WITHOUT PREJUDICE.
(4) The motion to sanction Simon is DENIED
WITHOUT PREJUDICE.
(5) Simon’s claim concerning the termination of
his monthly compensatory payments is DISMISSED
WITHOUT PREJUDICE for failure to exhaust adminis­
trative remedies.
(6) All other pending motions shall be termin­
ated as moot. So Ordered.
/s/ Allison D. Burroughs
Allison D. Burroughs
U.S. District Judge
Dated: November 19, 2018

App.l2a
FINAL ORDER OF DISMISSAL OF
DISTRICT COURT OF MASSACHUSETTS
(NOVEMBER 19, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
CHARLES SIMON,
Plaintiff,
v.

UNITED STATES DEPARTMENT
OF JUSTICE ET AL„
Defendants.
Civil Action No. 18-cv-11431-ADB
In accordance with the memorandum opinion
dated November 19, 2018, dismissing this action for
the reasons stated therein, it is hereby ORDERED
that the above-captioned matter is dismissed in its
entirety.
By the Court,
Is/ Karen Folan
Deputy Clerk
Dated: 11/19/2018

App.l3a
ORDER OF THE FIRST CIRCUIT
DENYING PETITION FOR REHEARING EN BANC
(JULY 31, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
CHARLES SIMON
Plain tiff-Appellan t,
v.

UNITED STATES DEPARTMENT OF JUSTICE;
T. SPEIGHTS, Coordinator of Federal Prisons
Industries Inc., 28 C.F.R. Part 301;
FEDERAL PRISON INDUSTRIES, INC.;
STEVE SHWALB, Retired Chief Operating Officer of
Federal Industries, Inc., Policy 18 U.S.C. § 4126
28 C.F.R. part 301,
Defendants-Appellees.
No. 18-2206
Before: HOWARD, Chief Judge, TORRUELLA,
LYNCH, THOMPSON, KAYATTA and
BARRON, Circuit Judges.
Pursuant to First Circuit Internal Operating
Procedure X(C), the petition for rehearing en banc
has also been treated as a petition for rehearing before
the original panel. The petition for rehearing having
been denied by the panel of judges who decided the

App.l4a

case and the petition for rehearing en banc having
been submitted to the active judges of this court and
a majority of the judges not having voted that the case
be heard en banc, it is ordered that the petition for re­
hearing and petition for rehearing en banc be denied.

By the Court:
Maria R. Hamilton
Clerk
cc:
Charles Simon
Cynthia A. Young
Jason C. Weida

Blank Page

Supreme Court
PRESS

